Nos. 19-251 & 19-255
IN THE

Ouprente Court of tie Eutteb Mateo
AMERICANS FOR PROSPERITY FOUNDATION,

v.

Petitioner,

XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA,
Respondent.
THOMAS MORE LAW CENTER,

v.

Petitioner,

XAVIER BECERRA, ATTORNEY GENERAL OF
CALIFORNIA,
Respondent.
On Writs of Certiorari to the United States
Court of Appeals for the Ninth Circuit
BRIEF FOR THE NATIONAL ASSOCIATION OF
MANUFACTURERS, THE ATLANTIC LEGAL
FOUNDATION, AND NATIONAL AND STATE
TRADE ASSOCIATIONS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,721 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 1, 2021.

Colin Casey IUgan
Wilson-Epes Printing Co., Inc.

